NO,

IN THE
SUPREME COURT OF THE UNITED STATES

SCOTT R, DEICHSEL - PETITIONER
VS,
LIZZIE TEGELS, WARDEN - RESPONDENT
PROOF OF SERVICE
I, Scott R, Deichsel, do swear or declare that on this date, June 15, 2021 >
as required by Supreme Court rule 29 I have served the enclosed

MOTION FOR

LEAVE TO PROCEED IN FORMA PAUPERIS AND PETITION FOR WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every ohter person
required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calander days and placed into the Jackson Correctional
Institutions, Neillsville-Unit on this date stated above.

The name and address of those served are as follows:
Wisconsin Department of Justice
P.O, BOX'7fc5n
Madison, WI5Vl^

RECEIVED
JUN 2 2 2021
OFFICE OF THE CLERK
SUPREME COURtTiT

I declare under penalty of perjury that the forgoing is true and correct.
Excecuted on June 15, 2012.
fc-f 0

uIa.Q

